WAIVER

Supreme Court of the United States

No, 20-798
Leonard Patti
(Petitioner)

EDO NOT INTEND TO FILE A RESPONSE to the petition for an extraordinary writ of
mandamus unless one is requested by the Court,

Please check the appropriate boxes:
w Please enter my appearance as Counsel of Record for all respondents.

© There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

Tam a member of the Bar of the Supreme Court of the United States.

Iam not presently a member of the Bar of this Court, Should a response be requested,
the response will be filed by a ih ber.

Signature Ly Ah CK f \ MN
Date: \ iS (90 ad

(Type or print) Name Donald A - K lew
Mr. OMs. O Mrs. 0 Miss
Fira Wei As’ Logs Ge On) Lay
Address Parsioga 7
City & State, Pacsipanay Ns aip_S VOY
Phone QV, = 4o3 ~ \ {oo

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ge WY, eorcnct Pod , Pry Se
QO Kerman Si, Aol bo
E- Ridhe Ga Ne

' gto73

Obtain status of case on the docket. By phone at 202-479-8034 or via the internet at
hittp://www.supremecourtus.gov. Have the Supreme Court docket number available.
